No. 20-54
IN THE

Supreme Court of the United States

BRipGE AINA LE ‘A, LLC,

Petitioner
v.

STATE OF HAWatl LAND USE COMMISSION,
Respondent.
On Petition for a Writ of Certiorari

to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5(b), I certify that on August 20, 2020, I caused
to be served, via United States Mail, first class, postage prepaid, the BRIEF OF
FOUR TAKINGS SCHOLARS IN SUPPORT OF PETITIONER in the above-
captioned case on the following:

Michael M. Berger Kimberly Tsumoto Guidr

Counsel of Record Counsel of Record

Manatt, Phelps & Phillips Department of the Attorney General
2049 Century Park East State of Hawa7’i

Ste. 1700 425 Queen St.

Los Angeles, CA 90067 Honolulu, HI 96813

(810) 312-4000 (808) 586-1360
mmberger@manatt.com kimberly.t.guidry@hawaii.gov

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 20, 2020.

— Oty H i _
Dwight H. Merriam

Attorney at Law

80 Latimer Lane
Weatogue, CT 06089
dwightmerriam@gmail.com
Tel: (860) 463-7233

Counsel of Record for Amicus Curiae
